OIG Investigative Reports, Edwina Pearl Alden Sentenced in U.S. District Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
NEWS RELEASE
FOR IMMEDIATE RELEASE:
August 9, 2006
U.S. Department of Justice
WILLIAM W. MERCER
United States Attorney
District of Montana
Contact:
Kurt Alme, Assistant U.S. Attorney for the
(406) 247-4669
Edwina Pearl Alden Sentenced in U.S. District Court
Bill Mercer, United States Attorney for the District of Montana, announced
today that during a federal court session in Billings, on August 9, 2006, before
Senior U.S. District Judge Jack D. Shanstrom, EDWINA PEARL ALDEN, a 43-year-old
resident of Crow Agency, appeared for sentencing. ALDEN was sentenced to a term
of:.
House Arrest: 10 months
Special Assessment: $200
Restitution: $19,838
Supervised Release: 3 years
ALDEN was sentenced in connection with her guilty plea to wire fraud and federal
education assistance fraud.
In an Offer of Proof filed by the United States, the government stated it would
have proved at trial the following:
On February 11, 2005, agents received a complaint from the Financial Aid Office
of Salish Kootenai College in Pablo which suspected that on an application for
financial assistance, ALDEN had falsified multiple Free Applications for Federal
Student Aid by stating she received her General Educational Development (GED)
certificate when she had not. Additionally, it was suspected that ALDEN had
submitted a falsified GED certificate from the State of Washington in support
of her application for financial aid on September 26, 2001.
Investigators reviewed information from the National Student Loan Data System
(NSLDS) records and determined that between 1995 and 2005 ALDEN had received
Pell Grants, FFSEO Grants, and Stafford Loan funds administered by the U.S.
Department of Education, various Indian Health Service grants, administered
by the Salish Kootenai College and provided by the Department of Health and
Human Services, and had received and attempted to receive grants and scholarships
administered by the Crow Tribe with money provided by the U.S. Department of
Interior.
College documents received from the Salish Kootenai College and Little Big
Horn College in Crow Agency revealed ALDEN had filed her Free Applications for
Federal Student Aid representing, as required for federal student aid, that
she was in possession of either a high school diploma or GED, making her eligible
for student aid. Financial Aid award letters received from the Salish Kootenai
College indicated ALDEN also received financial assistance from the U.S. Departments
of Health and Human Services and Education, and had received or attempted to
receive tribal funds provided by the U.S. Department of the Interior.
A GED certificate dated January 29, 1989, was submitted by ALDEN to Salish
Kootenai College as proof of her educational eligibility and to support her
application for federal resources. The certificate indicated that ALDEN had
taken the exam at Heritage College in Toppenish, Washington. The Director of
Information Services for Washington State Board of Community and Technical Colleges
indicated there was no record on file that ALDEN ever earned a GED in the state
of Washington. A copy of the GED submitted by ALDEN was reviewed by the director.
He indicated the name font did not match the rest of the certificate, the font
for the year of issue was not consistent with the month and day font, and Heritage
College had ceased issuance of GED certificates two years prior to the issue
date on the certificate submitted by ALDEN.
ALDEN transferred to Salish Kootenai College during the 2001 fall semester
and continued her attendance until the fall semester of 2004. ALDEN withdrew
from her classes on November 17, 2004, citing personal reasons as her motive
for withdrawing.
During her enrollment at Salish Kootenai College, ALDEN applied for and received
funds from several different programs. Salish Kootenai College utilized a Student
Data Form to evaluate and determine if a student met all the necessary requirements
to receive financial aid from these various programs. ALDEN completed four of
these forms during the time she attended Salish Kootenai College. ALDEN represented
to the Salish Kootenai College officials on each of these forms that she had
obtained a GED certificate
These forms contain a perjury statement. ALDEN signed and dated each of these
forms. ALDEN also signed a school year 2001-2002 Indian Health Service Nursing
Scholarship Contract.
On June 30, 2005, ALDEN was interviewed by federal agents of the Offices of
Inspectors General for Education and Interior. ALDEN admitted to not having
earned a GED and to submitting falsified information in an attempt to receive
financial assistance to attend school. ALDEN also admitted to knowing that the
GED certificate she had presented to several federal agencies was fraudulent.
Records from Salish Kootenai College and Little Big Horn College indicate that
ALDEN received $16,412 in payments paid directly to her from the grant funds
provided by the Department of Education funds and applied by Salish Kootenai
College and Little Big Horn College to educational expenses on her behalf.
Records from Salish Kootenai College indicate that ALDEN received $19,838.05
in payments paid directly to her from the grant funds provided to Salish Kootenai
College by the U.S. Department of Health and Human Services. An additional $6,450.95
was applied by Salish Kootenai College for educational expenses on her behalf.
Total amount expended was $26,289.00.
Records from the Crow Tribe indicate that ALDEN received $2,450 in payments
paid directly to her from the grant funds provided by the U.S. Department of
Interior during her enrollment at Salish Kootenai College.
Total assistance provided to ALDEN based upon the fraudulent GED totaled approximately
$42,701.
Because there is no parole in the federal system, the “truth in sentencing”
guidelines mandate that ALDEN will likely serve all of the time imposed by the
court. In the federal system, ALDEN does have the opportunity to earn a sentence
reduction for “good behavior.” However, this reduction will not exceed 15% of
the overall sentence.
Assistant U.S. Attorney Carl E. Rostad prosecuted the case for the United States.
The investigation was a cooperative effort between the Inspector General’s
Office of the United States Department of the Interior and the Inspector General’s
Office of the Department of Education.
Top
Printable view
Share this page
Last Modified: 08/10/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov